                                      INSPECTION




 U.S. FISH AND WILDLIFE SERVICE
 DIVISION OF INTERNATIONAL
 CONSERVATION




Assignment No.: ER-IS-FWS-0017-2009    October 2010
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



Memorandum                                                                        OCT 2 0 20\0
To:            Thomas L. Strickland
               Assistant Secretary for Fish and Wildlife and Parks

From:          Mary L.   Kendatl'd~Jf_
               Acting Inspecto:   ~e~~
Subject:       Inspection of the Fish and Wildlife Service Division of International Conservation
               (Assignment No. ER-IS-FWS-0017-2009)

        This memorandum transmits the findings of our inspection of the Department of the
Interior U.S. Fish and Wildlife Service Division oflnternational Conservation (Division). The
Division, which focuses on building the conservation capacity of countries with at-risk species,
currently administers nine separate discretionary grant programs. It typically awards more than
250 grants each year to accomplish this mission. In fiscal year 2009, the Division awarded grants
totaling approximately $13.5 million.

        We performed this inspection after a hotline complaint alleged inconsistencies in the
Division' s grants management practices. See Attachment 1 for the scope and methodology of
this inspection, as well as related reports.

        Our inspection confirmed a failure to address conflicts of interest, as well as a lack of
objectivity and fairness in certain grant proposal review sessions. We also confirmed an
insufficient separation of duties regarding the Chiefs Account. In addition, we discovered that
the Division has been using funds from its general appropriation to cover grant program costs in
excess of those allowed by legislation. Our Office of General Counsel has determined this
administrative practice to be improper.

        These findings may reflect an underlying systemic problem. As a result of inadequate
safeguards, the Division' s structure, policies, and control environment all failed to prevent or
detect the deficiencies discussed in this report.

        We offer four recommendations designed to improve grants award procedures, prevent
improperly charging administrative costs, and strengthen internal controls. We note that Division
officials have already begun fixing a number of these deficiencies and we commend them for
acting so quickly.




                                Office of Inspector General I Washington, DC
Background

        The Department of the Interior (Department) U.S. Fish and Wildlife Service (FWS)
Division of International Conservation (Division) is one of three divisions in the FWS Office of
International Affairs. Its mission is to support wildlife conservation initiatives around the globe
through cooperation with domestic and foreign governmental agencies, national and international
non-governmental conservation organizations, universities, and other interested parties.

        The Division has evolved over more than 20 years and administers a total of nine grant
programs. Five of these grant programs were legislatively established, are funded by the
Multinational Species Conservation Fund (MSCF), and target individual species. The Division
funds its four other programs from its general FWS appropriation. As a result, the budgets of the
four regional programs can change yearly. To obtain the best return on investment, the Division
has chosen to award large numbers of relatively small grants, which has, in turn, increased
administrative costs.

Division Grant Guidance

        Many of the Division-administered grant programs operate using slightly different
procedures because they developed independently. To address the resulting inconsistencies, the
Division set forth standard practices for its programs in April 2009 by issuing a “Grants and
Cooperative Agreements Handbook” (the Handbook). One of the Division’s grant officials
stated, however, that despite the Division’s efforts to achieve consistency through the handbook,
many employees were reluctant to use it or continued to do things their own way.

       Further, we found some cases of inadequate guidance in the Handbook, as well as
instances in which Division personnel chose not to comply with or undermined the guidance it
provides. For example, the Handbook fails to address Departmental requirements regarding
screening of grantees. Specifically, Departmental Manual (505 DM 2) requires that, prior to
awarding a grant, Division staff determine whether grant recipients are on any suspension and
debarment lists. It also requires that staff determine whether those receiving more than $500,000
in Federal assistance per year meet the requirements of Office of Management and Budget
(OMB) Circular No. A-133, Audits of States, Local Governments, and Non-Profit Organizations.
The Department requires that these steps be taken to discourage the receipt of Federal assistance
by high-risk grant applicants but no documentation exists to support the Division’s compliance
with these requirements.

        Guidance related to periods of performance is also inadequate. We uncovered several
cases in which conference or travel grant funds were available to be expended almost a year after
the relevant scopes of work had passed. While no specific legal criteria exist for setting such
periods, a period of performance that extends well beyond the scope of a grant can create
unnecessary complications. For instance, we found one grant that provided $11,500 for travel to
a week-long conference but had a period of performance ending 11 months after the last day of
travel. More than 6 months after the travel dates, nearly half of the awarded grant amount, or
$5,447, had yet to be disbursed (see Attachment 2 for monetary impacts). We could not
determine from the files whether this money had yet to be drawn down by the grantee or whether



                                                                                                 2
it should have been de-obligated. In either case, the unusually long period of performance
allowed these funds to remain obligated but unspent when the money could have been made
available to other grant applicants.

        Most of the grant program managers skip a crucial step in the certification process by not
requiring reviewers to certify their independence with regard to each grant application review
session. Review sessions of grant applications are performed by a cadre of subject matter experts
who review and rank each application. The failure to give proper consideration to potential
conflicts of interest, however, can create the appearance that the reviewers awarded Federal
funding based on personal preference rather than on how well a given proposal meets the criteria
outlined in the notice of funding availability (notice). For example, we found an instance in
which the Division’s Director served on the Standing Committee of an intergovernmental treaty,
the Ramsar Convention, at the same time that his office awarded grants in support of the
Convention. This situation — which could have been avoided simply by complying with the
Handbook —gives the appearance of a conflict of interest, which, in turn, can bring into question
the integrity of the grant process.

        In another example, the Division uses several different proposal scoring systems,
depending on the individual program manager’s preference. In compliance with 505 DM 2, grant
program managers require reviewers to fill out numerical score sheets for each proposal to
ensure that grant applications are scored on the basis of announced criteria. We found, however,
that some program managers add a second step to the scoring process: after applications are
scored, they are sorted into a three-tiered model based on factors not addressed in the grant
announcement.

         Those proposals in the first tier are grants that will be funded, those in the second tier
require alterations by the potential grantees, and those in the third tier will not be funded. Often,
this tiered list does not match the list formed by numerical scoring. The disparity between the
lists indicates either that score sheets or criteria are not robust enough to fully incorporate
program goals or that projects are ranked based on inappropriate criteria. Either way, this
practice reduces transparency and makes it difficult or impossible to determine—based on
documentation alone—why a certain proposal was selected for funding.

Chief’s Account

        We also found a number of deficiencies associated with what is called the Chief’s
Account. The Division typically uses the Chief’s Account to cover costs such as building space
and local travel and other expenditures that are not directly related to a specific grant program. It
has also been used, however, to fund several grants each year. According to program officials,
such Chief’s Account-funded grants have most often been associated with conferences on
international treaties supported by the Division.

       We reviewed all eight grants funded by the Chief’s Account in fiscal years 2008 and
2009 and found that the Division neither justified its selections nor adequately separated duties.
For two grants, Division officials selected grantees without competition or proper justification.
The other six grants were for amounts under $25,000 and did not require competition in



                                                                                                        3
accordance with 505 DM 2. However, officials failed to properly document the justification for
these single-source awards as required by the Departmental Manual.

        One Division staff member informed us that the same person served as both program
officer and grant specialist on at least one of these grants. Although the roles of program officers
and grants specialists are not clearly defined in legal terms, a program officer typically plays a
role much like the primary point of contact for a contract recipient, while a grant officer plays a
role similar to that of a contracting officer. To ensure adequate separation of duties, these roles
should be performed by two different people.

       These Chief’s Account deficiencies present serious potential for funding abuses.
Fortunately, Division managers are taking actions, such as instituting single source requirements
and separating duties, to resolve them.

Multinational Species Conservation Fund Appropriations

       During our inspection, Division officials informed us that they have been supplementing
MSCF appropriations with funding from their regional budgets. The MSCF programs have
budgets directed by congressional appropriations. Included in such appropriations are caps on the
amount of money that can be spent on grants administration. Four of the MSCF programs are
allowed 3 percent or $100,000 — whichever is more. The fifth program, the Marine Turtle
Conservation Fund, is allowed 3 percent or $80,000. According to program officials, actual
administrative expenses well exceed these statutory limitations and typically fall in the 8 to 12
percent range. As stated previously, the Division awards large numbers of relatively small grants,
which has led to these increased administrative costs.

        Our Office of General Counsel has determined that such supplementation of costs is
inappropriate. As stated by the Comptroller General, when an agency has overlapping
appropriations, it must use the more specific of the two. Charging the more general appropriation
(or any other appropriation) or using it as a “back up” is improper. For the Division, the
appropriation specific to the MSCF is clearly the only one from which the costs of administering
the MSCF may properly be paid.

Recommendations

   We recommend that the Assistant Secretary for Fish and Wildlife and Parks ensure that the
Division:

   1. Revise the Grants and Cooperative Agreements Handbook to require:
         a. mandatory checking of suspension and debarment lists and review of OMB
             Circular No. A-133 requirements, where appropriate;
         b. appropriate periods of performance for grants;
         c. completion of mandatory conflict of interest forms before every proposal review
             session;
         d. inclusion of all selection criteria and information used to select grantees on
             reviewer score sheets; and



                                                                                                   4
           e. standardization across all programs of the proposal review and scoring process.

   2. Establish a periodic review process to ensure adherence to published policies and
      regulations — to include the Handbook.

   3. Institute a policy on the operations of the Chief’s Account so that any grants given out of
      this account are properly advertised, competed, reviewed, and monitored.

   4. Limits administrative costs associated with the MSCF to the levels set by law.

       Please provide us with your written response to this report, number ER-IS-FWS-0017-
2009, within 30 days. The response should provide information on actions taken or planned to
address the recommendations, as well as target dates and titles of the officials responsible for
implementation. Please address your response to:

       Ms. Kimberly Elmore
       Assistant Inspector General for Audits, Inspections and Evaluations
       U.S. Department of the Interior
       Office of Inspector General
       1849 C Street, NW, MS 4428
       Washington, DC 20240

      If you have any questions about this report, please do not hesitate to contact me at 202–
208–5745.

Attachments (2)




                                                                                                   5
                                                                                  Attachment (1)


                          Scope, Methodology, and Related Reports

Scope

We performed our inspection in accordance with the President’s Council on Integrity and
Efficiency “Quality Standards for Inspections.” The inspection focused on the Department of the
Interior U.S. Fish and Wildlife Service Division of International Conservation’s (Division)
administration of its grant programs. We believe that the work performed provides a reasonable
basis for our conclusions and recommendations.

As part of our inspection, we:

   •    reviewed grants policies and regulations;
   •    reviewed the Division’s “Grants & Cooperative Agreements Handbook”;
   •    reviewed prior reports issued by our Office, the Department of Justice (DOJ) Office of
        Inspector General (OIG), and the National Procurement Fraud Task Force (NPFTF);
   •    interviewed Division personnel; and
   •    reviewed grants issued and administered by the Division.

Methodology

Specifically, we reviewed 20 grants that the Division issued during fiscal years 2008 and 2009
(through October 2009). We reviewed each grant to determine whether the Division properly
administered it in the pre-award, award, and post-award processes. We ensured that proper grants
procedures were followed and that the grants files complied with their internal checklists. We
also reviewed an additional seven grant files and various travel-related expenditures from the
Chief’s Account, as well as resolved any question of improper relationships between Division
personnel and grant recipients. Finally, we analyzed the Division’s use of discretionary funds,
compared the Division’s Handbook to various regulations, and reviewed promising practices,
including those presented in the reports listed below.

Related Reports

February 2009 — “A Guide to Grant Oversight and Best Practices for Combating Grant Fraud”
(NPFTF, Grant Fraud Committee)

Report addresses examining ways to enhance information sharing related to grant fraud;
coordinating efforts among agencies to train auditors, agents, and prosecutors on detecting,
investigating, and prosecuting grant fraud; and conducting outreach to agency program managers
who oversee Federal grant programs and grantees to coordinate prevention, detection, and
investigation of grant fraud and to communicate best practices in these areas.

February 2009 — “Improving the Grant Management Process” (DOJ OIG)

In response to DOJ’s responsibilities in awarding and overseeing $4 billion in funding contained
in the American Recovery and Reinvestment Act of 2009, DOJ OIG developed a set of practices


                                                                                                 1
that granting agencies should consider adopting to minimize opportunities for waste, fraud, and
abuse. The list includes practices that could be implemented in the short term (within 30 days),
the mid-term (within 1 year), and the long term (over 1 year). It contains recommendations for
improvements in grant program development, grant applications, award process, monitoring,
performance, training, and communications.




                                                                                                   2
                                                                  Attachment (2)


                      Schedule of Monetary Impacts


                                                     Funds To Be Put
                       Issue
                                                      to Better Use

The Division awarded a grant for travel to a
conference. More than 6 months after the travel          $5,447
dates, nearly half of the awarded grant amount had
yet to be disbursed.




                                                                              1
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
